<html>
<title> - H.R. 974</title>
<body><pre>[Senate Hearing 106-252]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-252


 
 H.R. 974--THE DISTRICT OF COLUMBIA COLLEGE ACCESS ACT AND S. 856--THE 
EXPANDED OPTIONS IN HIGHER EDUCATION FOR DISTRICT OF COLUMBIA STUDENTS 
                              ACT OF 1999

=======================================================================


                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
        RESTRUCTURING AND THE DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS


                             FIRST SESSION

                               __________

                             JUNE 24, 1999

                               __________

      Printed for the use of the Committee on Governmental Affairs


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 59-579 cc                   WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOSEPH I. LIEBERMAN, Connecticut
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
GEORGE V. VOINOVICH, Ohio            RICHARD J. DURBIN, Illinois
PETE V. DOMENICI, New Mexico         ROBERT G. TORRICELLI, New Jersey
THAD COCHRAN, Mississippi            MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania          JOHN EDWARDS, North Carolina
JUDD GREGG, New Hampshire
             Hannah S. Sistare, Staff Director and Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                  Darla D. Cassell, Administrive Clerk

                                 ------                                

SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND 
                        THE DISTRICT OF COLUMBIA

                  GEORGE V. VOINOVICH, Ohio, Chairman
WILLIAM V. ROTH, Jr., Delaware       RICHARD J. DURBIN, Illinois
JUDD GREGG, New Hampshire            ROBERT G. TORRICELLI, New Jersey
                  Kristine I. Simmons, Staff Director
   Marianne Clifford Upton, Minority Staff Director and Chief Counsel
                     Julie L. Vincent, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Voinovich............................................     1
    Senator Durbin...............................................     3

                               WITNESSES
                        Thursday, June 24, 1999

Hon. Thomas M. Davis, a Representative in Congress from the State 
  of Virginia, and Chairman, Subcommittee on the District of 
  Columbia, House Committee on Government Reform.................     4
Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
  District of Columbia, accompanied by Chartese Day, Student, 
  George Mason University, Fairfax, Virginia.....................     5
Hon. James M. Jeffords, a U.S. Senator from the State of Vermont, 
  and Chairman, Senate Committee on Health, Education, Labor, and 
  Pensions.......................................................     8
Hon. Anthony A. Williams, Mayor, District of Columbia............    16
Maureen A. McLaughlin, Deputy Assistant Secretary for Policy, 
  Planning and Innovation, Office of Postsecondary Education, 
  U.S. Department of Education...................................    18
Patricia McGuire, Chairwoman, Government Relations Committee, 
  Consortium of Universities of the Washington Metropolitan Area.    21
Dr. Julius F. Nimmons, Jr., President, University of the District 
  of Columbia....................................................    23
Lucio A. Noto, Chairman of the Board and Chief Executive Officer, 
  Mobil Corporation..............................................    25

                     Alphabetical List of Witnesses

Davis, Hon. Thomas M.:
    Testimony....................................................     4
    Prepared statement...........................................    30
Jeffords, Hon. James M.:
    Testimony....................................................     8
    Prepared statement...........................................    36
McGuire, Patricia:
    Testimony....................................................    21
    Prepared statement with attachments..........................    50
McLaughlin, Maureen A.:
    Testimony....................................................    18
    Prepared statement...........................................    42
Nimmons, Jr., Dr. Julius F.:
    Testimony....................................................    23
    Prepared statement...........................................    75
Norton, Hon. Eleanor Holmes:
    Testimony....................................................     5
Noto, Lucio A.:
    Testimony....................................................    25
    Prepared statement...........................................    87
Williams, Hon. Anthony A.:
    Testimony....................................................    16
    Prepared statement...........................................    39

                                APPENDIX

Prepared statement of Paul Strauss, U.S. Senator, District of 
  Columbia (Shadow)..............................................    29



 H.R. 974--THE DISTRICT OF COLUMBIA COLLEGE ACCESS ACT AND S. 856--THE 
EXPANDED OPTIONS IN HIGHER EDUCATION FOR DISTRICT OF COLUMBIA STUDENTS 
                              ACT OF 1999

                              ----------                              


                        THURSDAY, JUNE 24, 1999

                                       U.S. Senate,
       Oversight of Government Management, Restructuring,  
                 and the District of Columbia, Subcommittee
                        of the Committee on Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 11:39 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. George V. 
Voinovich, Chairman of the Subcommittee, presiding.
    Present: Senators Voinovich and Durbin.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Good morning. The hearing will come to 
order.
    First, I want to apologize to everyone for the delay of the 
hearing this morning. One of the most frustrating things about 
being a U.S. Senator as contrasted to being the governor of the 
State of Ohio is that when I was Governor, I controlled my 
agenda and time; in the Senate, I am at the mercy of other 
people.
    We welcome you to this hearing for the purpose of hearing 
two very worthy proposals--S. 856, the Expanded Options in 
Higher Education for District of Columbia Students Act, and 
H.R. 974, the District of Columbia College Access Act.
    Senator Jeffords will be coming over after he is finished 
with his meeting, but we have with us this morning 
Representatives Davis and Norton, who are sponsors of H.R. 974, 
and we are very pleased to have you here. I want to 
congratulate you on the hard work and success in moving this 
important concept forward. I know that we are all working 
toward the same goal--providing students in the District with 
greater postsecondary opportunities.
    I believe the tuition assistance concept that we will 
discuss here this morning is a welcome step toward providing 
the District's young people with a range of opportunities 
available to every other college-bound student in the Nation.
    By itself, this is an exciting program, but when we 
consider the Pell Grants, the Federal Supplemental Educational 
Opportunity Grants, the Federal Stafford Loans, the Federal 
PLUS Loans, and the Federal Perkins Loans, which are already 
available to college-bound students, and then include the 
private sector's new initiative, the D.C. College Access 
Program, it presents a fantastic opportunity for District 
students.
    We can say to a ninth-grader in the city: You can go to 
college. To many students have thought that a college education 
was beyond their reach. But this new program, combined with the 
private sector scholarship and existing Federal aid, shows the 
District of Columbia's young people that college is in their 
futures if they are willing to work hard.
    H.R. 974 and S. 856 are similar, and we are going to 
explore the different approaches of the two bills. I would like 
to applaud the sponsors of both bills for including tuition 
assistance grants to students who choose to attend private 
universities in the area. There are many great institutions in 
the metropolitan Washington area. I strongly support giving 
District students the opportunity to attend some of the finest 
schools in the Nation and am further delighted that students 
benefit from these schools while at the same time remaining at 
home.
    Finally, I would like to applaud the private sector for 
stepping up to the plate for education. More than a dozen 
regional corporate citizens, including The Washington Post and 
Mobil Corporation, are successfully racing toward a $20 million 
goal--think of that--$20 million to help the District's public 
high school students prepare for and enter and graduate from 
college.
    From my experiences as Mayor of Cleveland and Governor of 
Ohio, I am confident that the public-private partnership is one 
of the most important components of revitalizing any city. The 
quality education available in a city will dictate in large 
part the flow of residents into or out of a city.
    Cleveland is the only city in the country that has been 
named an All-America City three times within a 5-year period. 
But when I was Mayor, I said to the citizens of our town that 
we truly are not an All-America City until we have an all-
America school system. I think that is the message to all of 
our urban areas throughout this country. That is where the real 
challenge is today, in my opinion, in education.
    The D.C. College Access Program is the perfect private 
sector complement to the tuition assistance program we are 
discussing today. The D.C. College Access Program will provide 
professional counsel to all D.C. public high school students 
and last-dollar financial awards to young people with the 
greatest financial need.
    Often, money is important, but it is having that expert at 
the school who knows all the programs and can counsel that 
youngster and his or her parents about how to take advantage of 
the programs that are there.
    This program is largely based on a program with which I am 
very familiar, the Cleveland Scholarship Program, which has 
helped nearly 90,000 high school students go on to college in 
Cleveland.
    Again, I want to thank all the witnesses for being here 
this morning, and before I introduce them, I would like to 
recognize the Subcommittee's distinguished Ranking Member, 
Senator Durbin, for an opening statement.
    Senator Durbin.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Thank you very much, Senator Voinovich. I 
am glad that we are having this hearing.
    Let me say at the outset that I want to salute Mayor 
Williams. I believe that he has done an excellent job working 
with the various control boards and others that have an 
influence on the future of the District of Columbia. You are 
definitely moving in the right direction. I have seen dramatic 
progress in a short period of time, and I have every confidence 
that will continue.
    Let me also add that the subject of this hearing, this 
tuition bill, is one which I whole-heartedly endorse as a part 
of the President's budget and the legislative creation of 
Congresswoman Eleanor Holmes Norton as well as Congressman 
Davis and Senator Jeffords, who will join us soon.
    The young people in the District of Columbia are at a 
unique disadvantage in that they do not have opportunities that 
we have in Illinois and many other States to attend public 
institutions of higher learning and qualify for lower tuition 
rates as in-State residents. I am anxious to find a way to give 
them that opportunity.
    I think that what we should focus on here, as well as the 
concept of tuition for D.C. residents, is how it will be paid 
for. By luck of the draw, I end up being the minority spokesman 
not only on this Subcommittee which authorizes the District of 
Columbia, but also on the Appropriations Committee for the 
District, so I have in both capacities more connection with the 
District than some Members of the Senate.
    This afternoon, we will have a hearing on the D.C. 
appropriations bill, and there will be a proposal made that $17 
million be taken out of the Labor-HHS appropriation and given 
to the District of Columbia to pay for this tuition program. 
That is where I take exception. To take money out of the Labor-
HHS appropriation bill at this moment in time is wrong for the 
following reasons.
    We are $8 billion short of meeting last year's spending 
goals under the budget resolution passed by the Republican 
Majority. It means that we face at this moment cuts at the 
National Institutes of Health, and in health and education 
programs across America, to the tune of $8 billion. I am hoping 
that we can make up that difference, but to take $17 million 
out of that appropriation at this moment and give it to the 
District of Columbia for tuition programs makes no sense when 
the D.C. City Council has announced that they have $59 million 
they cannot figure out what to do with--not to improve the 
safety of streets, not to improve the schools in the District 
of Columbia, not to deal with the real life issues that people 
in the neighborhoods care about. So they want to give the $59 
million away in tax cuts.
    So here we are, subsidizing the District of Columbia for a 
program where they already tell us they have $59 million, and 
declare a dividend and give it back to the taxpayers in the 
District of Columbia. They have the money to pay for this 
tuition program. We do not need to take it out of Labor-HHS.
    Thank you.
    Senator Voinovich. Thank you, Senator Durbin.
    I would now like to call on two of our panelists and start 
with Representative Tom Davis.

   TESTIMONY OF HON. THOMAS M. DAVIS,\1\ A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF VIRGINIA, AND CHAIRMAN, SUBCOMMITTEE 
     ON THE DISTRICT OF COLUMBIA OF THE HOUSE COMMITTEE ON 
                       GOVERNMENT REFORM

    Mr. Davis. Thank you, Chairman Voinovich, Senator Durbin, 
and Members of the Subcommittee, for this opportunity to 
testify before you today, and thank you, Chairman Voinovich, 
for scheduling this hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Davis appears in the Appendix on 
page 30.
---------------------------------------------------------------------------
    I would like to ask unanimous consent that my entire 
statement be put in the record, and I will just address three 
or four issues straight up.
    First, I think this is a good regional bill. It not only 
helps the District of Columbia. We are dealing with a region 
right now which is growing, where there is a shortage of high-
tech workers and educational opportunities for people in the 
District of Columbia. We want them to be part of the growing 
economy, and right now, education is out of the reach of many 
of these D.C. residents. This is an opportunity to allow 
affordable college opportunity for kids who in many cases do 
not have that opportunity now.
    As more and more people go to college and choose college as 
an option, it will become more of the thing to do. That is how 
you slowly change the culture in the inner cities, and I think 
this is a giant step toward doing that by making college 
affordable to them. They are still competing in the out-of-
state schools as out-of-staters, so the admission criteria are 
a little tougher, although I understand there is some 
entertainment of perhaps reserving a few slots for District of 
Columbia students out of the out-of-state pool in a couple of 
neighboring States, and I think that will help.
    We support clarifying language in terms of Congressional 
Budget Office scoring that defines residency more tightly than 
we did on the House side. Had we had the benefit of the 
Congressional Budget Office study, I think we would have made 
that change ourselves, so we would welcome any language you add 
to do that.
    One question is do you do this in 50 States, or do you do 
this in 2 States. I think reasonable people can differ on this, 
and I think that if we go to conference on this, we would 
maintain some flexibility. Our goal here, though, was to 
provide as many affordable opportunities as we could for 
District of Columbia students, and 50 States obviously provide 
more opportunity than you will get in just 2 States. The 
rationale for 2 States is that Virginia and Maryland are next 
door, and these are the States from which the District 
originally came from, although there are universities in West 
Virginia and Delaware that are closer than many schools in 
Virginia.
    On income caps, if I live in Virginia, and my kid gets into 
the University of Virginia or George Mason or William and Mary, 
there is not an income cap on my kids being able to pay in-
State tuition through a university system; neither is there in 
Maryland. Why should there be for the District of Columbia if 
what we are trying to do is equalize educational opportunities 
for children in the District of Columbia as it is around the 
rest of the country?
    We are, as I noted in my statement, basically the State 
Government for the City of Washington, and there are certain 
responsibilities that go with that. Although the city does not 
get a vote on the floor of the House or the Senate, they do pay 
Federal income taxes, and it is a unique jurisdiction by nature 
of the Constitution. I think it sometimes calls for some unique 
solutions to some of the problems that confront it, and I think 
this legislation offers that.
    Finally, I think this should be administered by the 
District Government. This will be a priority. We want to try to 
entrust the city with more local decisionmaking. We have a new 
mayor, and I think it would be a slap in the face to put this 
in the Department of Education, where it could get buried along 
with a lot of other programs. The city needs this program; I 
think they want this program; they will benefit from it. And if 
the money does not cover all the opportunities, they can sort 
out the appropriate prioritization of who should go and should 
not, and at that point, the income caps. These are decisions 
the city should make, not here at the Federal Government level. 
Thank you.
    Senator Voinovich. Thank you, Congressman. We really 
appreciate the fact that you highlighted the issues that we are 
going to be discussing here today.
    Now I would like to call on Representative Norton, please.

TESTIMONY OF HON. ELEANOR HOLMES NORTON, A DELEGATE IN CONGRESS 
  FROM THE DISTRICT OF COLUMBIA, ACCOMPANIED BY CHARTESE DAY, 
      STUDENT, GEORGE MASON UNIVERSITY, FAIRFAX, VIRGINIA

    Ms. Norton. Mr. Chairman, and Senator Durbin, I appreciate 
that you have called such an early hearing and for inviting Tom 
Davis and me to testify about a bill that we have worked very 
closely on in a most bipartisan form of collaboration.
    We have also worked very closely with the President and 
with the First Lady and with the Department of Education, all 
of whom have given this bill priority.
    I do want to correct the record. Mr. Durbin is under the 
impression that there would be money removed from the Labor-HHS 
appropriation and given to the District of Columbia. Never is 
money given to the District of Columbia. This money is in the 
Labor-HHS appropriation because it was added by President 
Clinton specifically to deal with this program. In other words, 
this is money that but for this program would never have been 
in the Labor-HHS budget.
    We have worked very closely with the administration. The 
administration regarded this idea as a very important one, so 
that when Tom Davis and I began to work on the bill, the 
administration worked with us and worked with us with respect 
to the money, and the only reason it is in Labor-HHS is because 
it is an education bill, and that is why it is proper to 
transfer it, just to get it out at this point if that can be 
done.
    I want to say how grateful I am that Senator Jeffords has 
taken a special interest in this bill. Senator Jeffords has 
shown nothing less than dedication to education issues in the 
District of Columbia, both when he chaired the Appropriations 
subcommittee and since he has never stopped or dropped that 
interest. I want to say that there is not a dime's worth of 
difference--perhaps I should say a million dollars' worth of 
difference--between his bill and ours. In any case, Tom and I 
are certain we can work those differences out, because his bill 
and ours virtually amount to a consensus bill.
    I would like to focus on two questions, briefly, which I 
think might clarify other questions. One is the purpose of the 
bill, and the other is the administration of the bill.
    Actually, the bill has three purposes. What we are trying 
to do here is create a virtual State university system. We have 
a State university; we just do not have the kind of system that 
the residents of the 50 States have, and thus, the Framers in 
deciding that there should be a city that was not a part of a 
State for the convenience of the National Government left us 
without the mechanism for a State education system. It is the 
National Government which of course, has the capital at its 
convenience, which should, it seems to me, contribute to making 
up for this gap, which has had such an effect in denying equal 
access to higher education for the residents and for the young 
people of the District.
    The second purpose of the bill is to assist our own State 
university, the University of the District of Columbia. We do 
that by a one-time-only contribution to allow it to be a funded 
Historically Black College and University. Then, of course, 
once having become formally an HBCU college, it becomes 
automatically eligible for those funds.
    I cannot overemphasize how important it was that UDC be a 
part of this bill if we care about who is going to go to 
college in the District of Columbia. Many more will qualify to 
go to our open admissions university than will go out of State. 
Two-thirds of UDC students work, most of them could not go out 
of State, and we are very pleased that they have been included 
for a modest amount in this bill.
    We never intended and could never have intended this bill 
to deal with the many problems of UDC, but it is most 
appropriate that they be a part of the bill.
    A third purpose of the bill, of course, is to encourage 
residents to remain in this city. You can imagine what kind of 
incentive it is when a parent finds children in the 10th or 
11th grade and realizes what is going to happen in a few years 
and how much that is going to cost the parents. All you have to 
do is walk across the line to Virginia, which has 39 State 
college and universities, or to Maryland which has 35. We think 
that is one reason we lost three times as many people in the 
1990's as we lost in the 1980's, with the problems of the city, 
and then, with these additional disabilities, people just left. 
This will help us keep people.
    Let we move to administration. With locally-driven 
purposes, we think local administration makes the best sense. 
Indeed, we think that the few differences between the Jeffords 
bill and ours are best settled and most rationally settled 
through local administration rather than through mandates from 
Congress when we really have absolutely no experience of the 
kind that would guide us in writing hard mandates into the 
bill.
    Income and geographical elements come to mind particularly. 
I do not think we can reliably or responsibly draw either kind 
of line, but I think that Mayor Williams and his appointees 
could. I think we could get anomalies and unintended results, 
and I think we could even get unused funds in the early years, 
because we have no idea who will apply, we have no idea who 
will be incentivized to apply, we have no idea who will 
transfer. The unknowns multiply.
    As an example of unintended results, I cite section 5(c)(2) 
from the Jeffords bill which makes perfectly rational sense. In 
the Private University section, he says that in order to limit 
the amount of money, for rational purpose, they should be from 
adjacent counties. There are only two adjacent counties--Prince 
George's and Montgomery. We are not sure what happens to 
Virginia here, since you have to cross the river, and none of 
them is adjacent. Yet a number of the private institutions that 
will qualify are in Virginia.
    What is most disturbing, however, is that language like 
that would keep any Historically Black College or University 
from qualifying to receive students based on this money. For 
Hampton, where we have sent 150 students this year--none of 
those students could get this money because it is not in an 
adjacent county.
    Those are the kinds of things that could easily be worked 
out, though, below. We think that those issues are best 
calibrated at home rather than on the basis of guesstimates. We 
think that even income limits could fluctuate. We could have a 
year, particularly in the early years with the start-up 
required, where the income limits might be higher. Income 
should always drive this from the bottom up, with the lowest 
income getting the money first, and if there is money left 
over, to others, of course, based on income. But I do not think 
we would want to say here, with no experience, what that should 
be.
    What we have in the Jeffords bill and in our bill is a 
consensus about all of the major elements. I want to say to 
you, Mr. Chairman, that parents and students are absolutely 
besieging my office, so much so that I have already spoken with 
Mayor Williams and asked him to do early action in case we do 
get the bill out so that we might even get some of the money 
flowing as early as the winter semester.
    Senator Voinovich. Representative Norton, could you wind 
up, please?
    Ms. Norton. With your indulgence, Mr. Chairman, I wanted to 
ask if the student who accompanies me here could speak for a 
minute or two about the bill.
    Senator Voinovich. Without objection.
    I want to point out that Senator Durbin will have to leave, 
so I would like to move along and give him a chance to question 
the panel. And I would love to have you respond to his 
comments.
    Please go ahead.
    Ms. Day. Good morning, Mr. Chairman and distinguished 
Members of the Subcommittee.
    My name is Chartese Day, and I am a D.C. resident and a 
student. I am here today to ask for your full support of H.R. 
974, the District of Columbia College Access Act.
    I am a sophomore at George Mason University, a State school 
located in Fairfax, Virginia. I chose to attend this fine 
institution of learning because it is the only school in the 
country with an integrative and interdisciplinary studies 
degree program, New Century College.
    Although I have a deep love for my educational pursuits, I 
am disheartened about the unequal status of the District of 
Columbia which places our students at a grave disadvantage. 
Every year, thousands of students in the 50 States and the 
District of Columbia set out for college. But there is a 
divider between these two groups of students that should be 
eliminated.
    Students within the 50 States have the opportunity to 
attend in-State colleges and universities at in-State rates 
which are considerably cheaper than out-of-State rates. 
However, District of Columbia students do not have this 
privilege. Instead, we must pay astronomically high rates at 
private colleges within our city boundaries and very high rates 
at State colleges.
    Last year, my family paid $18,000 in out-of-State tuition 
fees compared to $8,000 for in-State tuition--and my mother is 
a single parent as are many District of Columbia parents.
    I was lucky that my mother worked hard for the means to 
send me to college last year. Many other students are not as 
fortunate as I and instead must sacrifice their dreams of 
higher education.
    Last year, I had to pay $10,000 more in tuition simply 
because the District of Columbia is not a State and does not 
have a State university system.
    Today I am here to ask that you accept and support H.R. 
974, The District of Columbia College Access Act, because it 
allows District of Columbia students to take advantage of in-
State tuition rates at out-of-State colleges and universities.
    In addition, I would like to ask that you also accept and 
support the grandfather clause within the bill as currently 
written, which would extend these privileges to District of 
Columbia students like me, already enrolled in colleges and 
universities.
    I did not ask to be born and raised in the District of 
Columbia. My mother gave birth to me here. However, I am a 
proud Washingtonian and have a strong love for this 
extraordinary city which is the Nation's Capital. In the past, 
I have been denied Statehood, I have been denied a vote in 
Congress. I ask today that I no longer be denied a right to 
receive an affordable higher education simply because I do not 
live in a State.
    Thank you for your cooperation and consideration.
    [Applause.]
    Senator Voinovich. Thank you very much. That was a very 
eloquent statement, and we are glad to have it. It is nice to 
have someone here who can talk about the experience that they 
have had and not having the opportunity that other students 
around the country do have. Thank you.
    Senator Voinovich. Senator Jeffords.

TESTIMONY OF HON. JAMES M. JEFFORDS,\1\ A U.S. SENATOR FROM THE 
  STATE OF VERMONT, AND CHAIRMAN, SENATE COMMITTEE ON HEALTH, 
                 EDUCATION, LABOR, AND PENSIONS

    Senator Jeffords. It is with some trepidation that I follow 
the previous speaker, because I am sure I cannot top her 
dissertation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Jeffords appears in the 
Appendix on page 36.
---------------------------------------------------------------------------
    I am very pleased to be here. I think it is very exciting 
that we are considering doing what should be done for the young 
people of the District of Columbia. I am very positive that we 
will be able, as mentioned by Ms. Norton, to reach a compromise 
here, but I do have some matters that I think need attention. I 
would therefore ask that my entire statement be included in the 
record and will go through a shorter version.
    Under the able leadership of the House, which has endorsed 
this bill without a dissenting vote, I certainly looked at it 
with care. The legislation that I have introduced and the 
measure approved by the House share the same goal, that is, the 
goal to provide the citizens of the District of Columbia with a 
greater range of options in pursuing postsecondary education by 
having the Federal Government offer support which, in other 
areas of the country, is provided by State Governments.
    I am delighted at the level of interest and support that 
the D.C. tuition concept has received. Although the House and 
Senate bills are aimed toward the same objective, they differ 
in the design and administration of the program and the scope 
of the benefits provided. I would like to lay out the reasoning 
behind the approach I took, particularly regarding the scope of 
the program.
    Briefly, my legislation has three components. One, it picks 
up the difference in cost between in-State and out-of-State 
tuition for D.C. residents who attend public postsecondary 
institutions in Maryland and Virginia. Two, it provides 
additional support to the one public postsecondary education 
institution in the District of Columbia, the University of the 
District of Columbia. And three, it offers support to those 
students choosing to attend private institutions in the 
District and neighboring counties, providing grants up to 
$2,000 to help defray tuition costs.
    I have nothing against reaching for the sky, but I will say 
that this proposal does not cover all the ground that the 
version approved by the House does. Basically, I felt that, in 
launching a brand-new program, it was best to develop a fairly 
simple foundation and try it out. I have also found it far 
easier to expand an effort in the future than it is to roll it 
back.
    Moreover, I believe it is important to assure the program 
is reasonable in cost. With the tight discretionary spending 
caps enacted in 1997, there is not any ``free'' money. Spending 
in one area will mean fewer dollars are available in another. I 
therefore tried to design a program that would fall into the 
range of the $17 million provided in the President's budget 
request for the D.C. tuition initiative. Based on preliminary 
estimates by the Congressional Budget Office, I believe that my 
legislation will achieve this goal if the residency provisions 
are tightened to avoid providing benefits to unintended 
recipients.
    If there is a desire to make larger amounts available in 
order to finance a more generous program, then I believe those 
funds need to come from a source other than the Federal 
discretionary accounts. I have long favored a regional 
education approach to the D.C. metropolitan area. During the 
last Congress, I introduced legislation calling for the 
establishment of a regional education and workforce training 
system in the metropolitan area. The financing mechanisms was a 
commuter tax, and needless to say, that idea did not get very 
far.
    Nevertheless, I do not think such an approach should be 
ruled out as a means to offer additional support for students 
through a D.C. tuition assistance program. It has the 
additional advantage of ensuring that the funds are used to 
benefit the metropolitan area rather than simply being sent to 
Richmond or Annapolis as the present funds are. A tax rate as 
low as one-half of one percent would provide about $100 million 
annually--an amount that would be more than adequate to extend 
the in-State tuition to all 50 States or to provide larger 
grants to students attending private institutions, or to 
support UDC.
    Beyond that, it would also help fund the project that is 
now being called PREP, which is a regional educational system 
which could also improve education for grades K through 12.
    The House-passed bill provides that the mayor will 
administer the program, while my legislation gives that 
responsibility to the Secretary of Education. I chose that 
route because the Department of Education has a great deal of 
experience with student financial aid and has well-established 
relationships with every institution of higher education in the 
country.
    The mayor, on the other hand, would have to start from 
ground zero to develop the expertise and relationships 
necessary to ensure the smooth operation of the program. 
Particularly during the start-up phase of the program, I 
believe it is necessary to have experienced hands in charge. In 
putting together this program, mechanisms will have to be 
developed to deal with issues such as determining student 
eligibility, monitoring enrollment status, and tracking in-
state and out-of-state tuition rates.
    There are a number of pressing education issues facing the 
District of Columbia at this time, including the need to better 
manage special education programs. I do not want to be in the 
position of placing a new administrative responsibility on the 
District of Columbia at this time, particularly when a viable 
alternative is available.
    At the same time, I understand the reasoning behind housing 
this program in the mayor's office. In fact, my legislation 
leaves this open as a possibility. In seeking a middle ground, 
my suggestion would be that the Secretary of Education be in 
charge of the program during the critical initial years when 
the basic operational system is designed and put into place. 
Then, after 3 or 4 years, the program could be transferred to 
the mayor upon his request. If he wanted to leave it there, he 
could leave it there.
    At the end of the day, the precise language of any 
particular provision of my bill is not the issue. What is 
important is that we enact legislation which offers to District 
of Columbia students the best deal we can afford through a 
program which operates effectively and efficiently.
    An investment in education is one of the most important 
investments that we as a society and we as individuals can 
make. There are boundless opportunities in the D.C. area for 
individuals with education and training beyond high school. 
D.C. residents should not be left behind in obtaining the 
capacity to take advantage of these opportunities.
    I hope the Subcommittee will find aspects of my proposal 
useful in this regard, and I look forward to continuing to work 
with the Members in any way I can to assist in this very 
important project.
    Thank you, Mr. Chairman.
    Senator Voinovich. Thank you, Senator Jeffords.
    I really think it is wonderful that, with all the other 
responsibilities that you have, you are interested in doing 
something for the District of Columbia and have been thinking 
about this for quite some time.
    Because Senator Durbin has some other things to do, I will 
invite him to ask his questions first.
    Senator Durbin. Thank you, Mr. Chairman.
    Let me explain that I am chair of the Illinois Delegation, 
which meets once a month in a bipartisan fashion to discuss our 
State issues, and so that is where I am headed, and I am sorry 
I cannot stay for the rest of this hearing, but I will review 
the testimony.
    I would like to make one observation and then ask perhaps 
two very quick questions.
    First, Congressman Norton, when you speak of the 
President's budget and the budget resolution before Congress, 
we are dealing with a theory and a fact. The theory of the 
President's budget was that we would have an additional $10.4 
billion to spend in Labor-HHS in the next fiscal year. The fact 
in the House budget resolution is that we are cut $8 billion. 
That is the difference between theory and fact. The $17 million 
the President called for in this program was part of a budget 
which had $10 billion more to spend than we face now in 
Congress with the budget resolution, and that is the reason why 
I think that distinction should be made.
    I would like to go to one particular issue here that seems 
to be an issue of disagreement. Beyond the question of whether 
or not a resident of the District of Columbia can attend 
colleges outside of Maryland and Virginia under this program, 
speak to the means-testing issue, if I could ask you to, and 
since both Senator Jeffords and Congresswoman Norton are 
familiar with 1-minute speeches in the House, if you could each 
take 1 minute to tell me why you think, Senator Jeffords, there 
should be a means test, and you believe, Congresswoman Norton, 
that there should not be a means test, I would appreciate it.
    Senator Jeffords. Well, it is also combined with who 
administers the programs. I think you have to keep that in mind 
as well. But in my judgment, the ability for people to move 
around and the ability to be able to take advantage of the 
situation makes it essential that we start out in a sort of 
conservative manner rather than opening it totally up to 
everyone.
    So I would hope that we would at least start off with a 
means test just to see what the response is, rather than just 
going ahead with it from the start.
    Senator Voinovich. Congresswoman Norton.
    Ms. Norton. I do not think there is a difference between 
Senator Jeffords and myself. I am not opposed to a means test. 
My position is simply that we should look to see who applies 
and then apply any means test that may be necessary at that 
point. We are in a start-up program particularly because we are 
in a start-up program. To put a means test on it now without 
knowing anything about the incomes of the people who may apply 
or whether we will have leftover money because we put to low a 
means test on it does not seem to me to make a lot of sense.
    What I think we should do is instruct the mayor to do what 
he would do anyway, which is that if there is not enough money 
to go around--and there may be in the first year--I emphasize 
that--there may be in the first year--then of course, this 
money ought to be distributed on a means basis. If we put a 
figure in the bill, however, then I would like to know what we 
do if in fact we find that there are some students who would 
qualify, who might be over that income, and the money is there, 
but we deny it to them because Congress has put a means test on 
without the data available to indicate whether that is 
reasonable under all the circumstances.
    So I do not disagree with means test. I just do not think 
we are in a position to put it on, and we should let it be done 
at the local level.
    Senator Durbin. If I could ask one follow-up, Senator 
Jeffords, that seems like a valuable suggestion, that if we put 
a means test--and we have established the figure of $17 
million, for example--and applying the means test, we find we 
do not have sufficient applicants to meet the $17 million 
maximum, could we put language in here which would allow it to 
expand, then, to raise the income level to meet the $17 
million?
    Senator Jeffords. You certainly could do that, and I have 
no disagreement with that. What I do not want to do is have an 
open-ended one and then have to send out notices to a few 
thousand young people saying, sorry, we do not have enough 
money to let you participate. I think it is better to start out 
in a cautious manner until we know what the demand is.
    Moving around in this area is so flexible, you can just 
walk across the line, and you have an entirely different 
educational option. I do not know how much that will happen, 
but that is going to be a problem, regardless of the means-
testing. So I would be very cautious starting out.
    Senator Durbin. Thank you. Thank you, Mr. Chairman.
    Senator Voinovich. Thank you, Senator Durbin.
    Getting at some of the issues in terms of the differences 
in the legislation, Senator Jeffords, you would like to limit 
the States' involvement in this to Maryland and Virginia; is 
that correct?
    Senator Jeffords. That is our recommendation, again, to 
start off in a rather cautious way, rather than expanding those 
options, until we know what the demand is going to be. Sure, I 
would like D.C. students to come to Vermont--I have no problem 
with that--but I think we should start off making sure that we 
take care of the local institutions that have the willingness 
to provide for young people. Again, if the resources are there, 
that is another issue.
    I would point out that I feel very strongly that since the 
city is now prospering--even thinking about tax cuts--that we 
should be mindful that the funding for this program comes from 
discretionary funds that are available to all the young people 
in the United States. If we cut into those funds, it could be a 
problem. That is why I suggest alternative ways of funding to 
expand the horizons dramatically not only for college-bound 
students but also for K through 12 assistance in the 
metropolitan area.
    Senator Voinovich. One of the observations that I have 
made, and it is just anecdotal, is that I think there have been 
some complaints by the citizens of Maryland and Virginia that 
some of their kids have difficulty getting into their State 
schools. If you add the District of Columbia youngsters to that 
pool, it might make it more difficult for them to get in. In 
Ohio, for example, we have out-of-State students, and some of 
our own students are sometimes not as good academically as they 
should be, and they are asked to stay out for a year or two or 
go to some other school for a while. And I hear from the 
parents who say we should keep all these out-of-Staters out in 
order to give our own kids an opportunity.
    I think the concept of expanding it beyond the two States 
would give the youngsters an option to reach out across the 
country and have, I think, perhaps more of an opportunity to 
get in than they might have if they were restricted just to 
those two States.
    Would you like to respond to that?
    Senator Jeffords. Again, I would only say that it is a 
matter of who is paying for it. If you have $17 million 
allocated out of the White House budget, that is fine, or if 
the resources can come from D.C. general funds or whatever else 
with respect to their other priorities, I think you can adjust 
those boundaries to match your resources.
    Senator Voinovich. Representative Norton.
    Ms. Norton. If I could respond to that as well, there was a 
front-page story in The Washington Post a couple of months ago 
that said that Maryland and Virginia are turning down their own 
residents for their State colleges in record numbers, 
apparently because the cost of college education today is 
sending so many people to apply to State colleges. I do not 
disagree in principle with Maryland and Virginia, but I think 
the point you raise, Senator, is an important one to bear in 
mind, that we could get another one of these unintended 
consequences with Maryland and Virginia tightening up on their 
own residents. Does that mean they are going to be open to the 
District of Columbia when we bring a whole new pool that would 
not have applied but for this bill?
    Congressman Davis wanted me to tell you he had a vote, and 
that is why he had to leave.
    Delaware and Virginia have parts of the State that are 
closer than many of the State universities in Maryland and 
Virginia. Again, we might well get where the Senator wants us 
to get, but could we get there not with statutory language but 
on the basis of local administration?
    Senator Voinovich. I would like you to comment also on the 
difference of opinion about how the program should be 
administered. Why is it that you feel you would rather have it 
in the mayor's office than have it operated by the Department 
of Education, and do you have any suggestions as to how this 
might be compromised?
    Ms. Norton. I do, because I think that here, there is 
really very little difference. I think one bill says to be 
administered by the mayor in consultation with the Department 
of Education, and the other says to be administered by the 
Department of Education in consultation with the mayor.
    I am sensitive to what the Senator said about not wanting 
to load another bureaucracy onto the District of Columbia. I do 
believe that putting the matter in the mayor's office on a home 
rule basis is the most efficient way to do it, and I think that 
the consultation with the Department of Education would indeed 
result in the sharing of their expertise of the kind that the 
Senator wants to see happen. He says they are the people who 
have some experience--that is absolutely right--and we have a 
very long history now, especially during this administration, 
of dealing directly on just this kind of consultive basis with 
the Department of Education. They are over in the District all 
the time, sharing with us in all manner of ways and helping to 
set up and reform our own operations.
    So I really do not think there is a lot of difference, 
because the consultation is going to occur no matter which is 
chosen on a home rule basis, on a local autonomy basis. I would 
hope it would be placed in the District of Columbia with people 
from the Department of Education consulting and helping us to 
set up a program.
    Senator Voinovich. Senator Jeffords.
    Senator Jeffords. Just a brief comment. I would point out 
that the District of Columbia education system is finally 
coming along. It had one of the worst systems in the country, 
and it is now moving up rapidly. They had huge problems to deal 
with in the K through 12 area.
    My suggestion to have the program administered to the 
Department of Education at least temporarily, and then, later 
on, give the option to the mayor. If he says, ``I would like to 
take it over,'' he could take it over. That approach would 
relieve a very burdened educational system right now from 
having to take on the very difficult job of trying to 
administer all the new higher education aspects. I feel very 
strongly that it should start out with the Department of 
Education and then let the mayor, if he desires to take it 
over, have that option.
    Senator Voinovich. In other words, your thought is that the 
program would be run by the U.S. Department of Education?
    Senator Jeffords. Yes.
    Senator Voinovich. And you mentioned that the school 
district is overburdened and has real challenges. It was my 
understanding that this program would be operated out of the 
mayor's office and not out of the----
    Senator Jeffords. No. It would be operated out of the 
Department of Education. It could be either way. I do not think 
we have any strong feelings about what building it is in.
    Senator Voinovich. My thought--maybe I misunderstood--is 
that the District of Columbia Department of Education would not 
be running this, but that it would be in the mayor's office, 
and the thought was that he would be assisted by, perhaps, 
people from the U.S. Department of Education.
    The point I am making is that we are not going to be 
putting an extra burden on the back of the local school 
situation.
    Senator Jeffords. I understand, and I think that is wise. I 
would guess you ought to talk to the Department of Education or 
the Secretary of Education to get from them their perspective 
on what would be the best way of how to handle that 
responsibility if they have it.
    Senator Voinovich. Do either of you wish to make any 
further comments before we move to the next panel?
    Ms. Norton. No. Thank you very much, Mr. Chairman, for this 
hearing.
    Senator Voinovich. I have one last question. I have 
received some letters of support and E-mails for this 
legislation, but we have received several letters in opposition 
to the concept for fear of its impact on UDC. Would you like to 
comment on that?
    Ms. Norton. Yes. Initially, there was some concern about 
the impact on UDC, and we cannot say what the impact will be on 
UDC except to say that there are two different pools of 
students. I indicated that two-thirds of the students at UDC 
work, and most of them could not leave town to go away to 
school if they wanted to. Many of them have family obligations 
here. In any case, we do not want to take the position in this 
city that in order to build up one part of our State university 
system, we want to deny educational opportunities to 
youngsters.
    I am pleased that President Nimmons, the president of UDC, 
while a fierce advocate for his own institution, took the 
position that UDC should be for this bill, that UDC could 
compete for students. In any case, this bill is to serve the 
students of the District of Columbia. We have gotten UDC into 
this bill in a way that it would never have gotten into the 
bill but for this bill.
    In other words, UDC has gotten an opportunity it never 
would have had if this bill to allow students to go out-of-
State had not been put in. So if anything, UDC is ahead of the 
game precisely because students in the District of Columbia may 
get the opportunity to go out-of-State as well as have the 
choice of going to UDC.
    Senator Jeffords. UDC can be a tremendous asset to this 
community, but it may have to change its direction in some way 
as far as how it handles the matter of curricula and so on. But 
I think it will be improved and will thrive under the 
arrangement that has been set up rather than in any way be 
disadvantaged by it.
    Senator Voinovich. Thank you very much, both of you.
    Our next panel includes Mayor Anthony Williams and Maureen 
McLaughlin.
    Mayor Williams, it is nice to see you again. I had the 
opportunity of spending many hours with the mayor when he 
visited with me in Cleveland, and Mayor Williams, I am hopeful 
that you have some good ideas on how the private sector can be 
of some help to you here in the District.
    Mayor Williams. Thank you, Senator.
    Senator Voinovich. We also have with us Maureen McLaughlin, 
who is the Deputy Assistant Secretary for Policy, Planning, and 
Innovation with the Office of Postsecondary Education at the 
U.S. Department of Education. We are glad to you have with us 
today. We have been talking about who should run the program 
and so on, and we will be interested in hearing from you.
    I would now like to call on Mayor Williams.

 TESTIMONY OF HON. ANTHONY A. WILLIAMS,\1\ MAYOR, DISTRICT OF 
                            COLUMBIA

    Mayor Williams. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mayor Williams appears in the 
Appendix on page 39.
---------------------------------------------------------------------------
    I would also like to thank Senator Durbin for having been 
here and for you spending his time and attention on this 
important aspect of the District of Columbia's recovery.
    I have said since my inaugural that our job here in the 
District of Columbia is to show that democracy can work in the 
District and on the road to full recovery and the realization 
of democracy to build community, to build the public/private 
sector partnerships that we saw, to invest in education as a 
foundation for what we want to do. In that respect, I agree 
with what our Congresswoman has said in that our students in 
the District are at a tremendous disadvantage when it comes to 
access to higher education.
    I believe the College Access Act will help amend this 
discrepancy and put the District's students and their parents 
on an equal footing with the residents of the 50 States.
    As you have mentioned, the new D.C. College Access Program, 
a public/private partnership between area corporations and 
public schools will now be offering up to $2,000 in financial 
aid to qualified District students. As you know, similar 
efforts in Cleveland--where I visited last week--have seen 93 
percent of involved students continue on to college or to 
vocational school.
    But the D.C. CAP will not meet all of our needs. The 
District of Columbia College Access Act can make higher 
education feasible for all those in need of cutting university 
costs by 50 percent or more.
    As we know, in recent years, we have lost tens of thousands 
of residents to surrounding suburbs in Virginia and Maryland. 
With the rising costs of higher education, the District stands 
to lose more and more families who relocate to other States to 
take advantage of a State higher education system.
    Today in the District of Columbia, only one in three high 
school freshmen goes on to attend postsecondary education. But 
we know that a highly educated workforce is essential if we are 
to lay the economic foundation for the recovery that I talked 
about.
    One provision of the proposed bill that is of utmost 
importance is the absence, I believe, of a means test. For 
residents of the 50 States, in-State tuition rates are not 
pegged to income. For example, in the State of Washington, if 
Bill Gates want to send his children to the University of 
Washington, he would pay in-State tuition. I believe there 
should not be a means test here in the District of Columbia.
    I think that in the case of establishing a means test to 
begin with, you are going to have some disappointed families. 
If we were to have no means test, gauge the demand, process the 
requests and send denials on the basis of limited means, we 
would still have some disappointed folks. If we are going to 
have some disappointed folks, it seems to me we should at least 
have a program and a process where we exhaust all the resources 
available, because I think it would be tragic in the first year 
of the program to have sent away some folks without assistance 
and yet at the same time, ironically, have some money leftover.
    Also, while I think there are two different ways to do 
this, I believe that putting this in the mayor's office is the 
way to go--not that we do not have other things to do, but I do 
believe that economic development--and I think this is an 
economic development tool and investment in children--it 
certainly is about investment in children--are cornerstones of 
our administration's efforts. Arranging the process and the 
operations in this way would not overburden the school system, 
because as you correctly pointed out, Mr. Chairman, the schools 
are not the responsibility of the mayor.
    In fact, the staff of my office have already met with 
Deputy Assistant Secretary McLaughlin to discuss the 
Department's experience in administering the scholarship 
program, and we appreciate all the Department has done for us 
and look forward to working with them to make this College 
Access Program work.
    Further, again, this is going to be pegged to means 
available. Ideally, I would like to see this apply to all 50 
States. As Congresswoman Norton mentioned, and some other 
testimony is evidence, there is some notion that confining this 
to the two adjoining States puts pressure on in-State residents 
in other States. You would relieve that pressure by allowing 
our students to attend anywhere in the country. Furthermore, I 
think it once again, in the spirit of this act and legislation, 
situates our students similar to students in any other State.
    I also believe that we must recognize in this bill the 
needs of our private institutions in the City that have done a 
good job to support our students. The assistance in some of the 
measures before you help to address that concern. They have 
done a lot to provide scholarship assistance, in-kind and other 
assistance for our graduates here in the District of Columbia. 
There is precedent in Virginia and other States for providing 
assistance to private universities, and I believe we should do 
this here.
    I also believe--and I have done this in my own budget on a 
local basis--that we have to support the University of the 
District of Columbia as a key element of an overall State 
education system. I believe that we are doing this by providing 
initial capital funding, I believe we are doing this by 
providing for the first time an investment in endowment. We are 
also going to launch this summer the introduction of my 
nominations for a board of trustees of national caliber. All of 
these are efforts to support the university as it works to 
focus its mission as a flagship academic institution while also 
providing--regrettably, but we need to do this--remediation for 
many of our high school students. In addition, UDC is a 
continuing education arm for employees who are looking for 
upward mobility and the kind of work-to-work upward mobility 
that every city has to provide.
    That concludes my remarks, Mr. Chairman, I would be happy 
to answer any questions you may have.
    Senator Voinovich. Thank you very much, Mayor Williams. I 
think you really hit on some of the issues that are of 
controversy. Thank you.
    Ms. McLaughlin.

    TESTIMONY OF MAUREEN A. MCLAUGHLIN,\1\ DEPUTY ASSISTANT 
   SECRETARY FOR POLICY, PLANNING, AND INNOVATION, OFFICE OF 
     POSTSECONDARY EDUCATION, U.S. DEPARTMENT OF EDUCATION

    Ms. McLaughlin. Thank you, Mr. Chairman. I am pleased to 
have the opportunity to appear before you today to share the 
administration's views on H.R. 974 and S. 856. I will summarize 
my testimony and submit the longer version for the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. McLaughlin appears in the 
Appendix on page 42.
---------------------------------------------------------------------------
    The administration strongly supports providing all District 
of Columbia residents access to a broad array of choices in 
postsecondary education similar to those available to residents 
of the 50 States. This would enable all District residents to 
attend affordable colleges and universities with a range of 
missions and strengths, and to tailor their educational 
experiences to meet their individual goals and needs.
    To recognize the importance of this initiative, the 
administration included $17 million in its fiscal year 2000 
budget. Since that time, we have worked hard to ensure that 
this idea becomes a reality. We appreciate the bipartisan 
support that has surrounded this legislation from the start, 
and thank you for the opportunity to work with you on the 
structure of the program.
    The administration is particularly pleased with three 
aspects of the bills before Congress. First, each bill 
addresses a critical shortage of public postsecondary education 
options in the District of Columbia by allowing residents to 
attend out-of-state public institutions at in-State tuition 
rates. This cornerstone provision would enable D.C. residents 
to enjoy the same diversity of affordable public postsecondary 
education that has been available to residents of all 50 States 
for many years.
    Second, the administration is pleased that both bills would 
provide grants to District of Columbia residents who choose to 
attend private colleges in or around the city. Many strong 
colleges and universities are located right here in the 
District of Columbia and surrounding areas. Yet in many cases, 
District of Columbia residents have not been able to attend 
these institutions because of limited resources. Forty-eight of 
the 50 States recognize the importance of providing 
opportunities for their students to attend private colleges in 
their States and provide subsidies for this purpose.
    Third, the administration continues its strong support for 
the University of the District of Columbia and is pleased that 
Congress has appropriated Federal financial support for the 
university. We recently worked with Congress to ensure that 
funds would be available to UDC without reducing funding for 
other Historically Black Colleges and Universities. We are now 
working with UDC to enable it to receive these funds in the 
near future.
    Our goal is to provide greater access to a broad array of 
institutions of higher education to District of Columbia 
residents and to design the program in a manner that ensures 
congressional support over the years to come. We need to ensure 
that the tuition benefits that are provided are consistent, 
reliable and predictable.
    To do this, the program must be designed in a way that will 
generate support for sufficient funding each year. In that 
vein, the Congress has some concerns about the high cost of the 
House-passed bill and offers several suggestions for developing 
a program that meets the needs of District residents while 
ensuring sustainability over time.
    The Department of Education estimates that H.R. 974 will 
cost $37 million in fiscal year 2000 and that S. 856 would cost 
$17 million in fiscal year 2000. We believe that the cost of 
the program as structured in S. 856 is more sustainable over 
time. A significant portion of the cost of the House-passed 
bill--almost $11 million--relates to the provision that would 
allow students to pay in-State tuition amounts at any public 
institution across the country rather than limiting the scope 
to public institutions in Maryland and Virginia as supported by 
the administration and included in S. 856.
    This aspect of H.R. 974 would provide a wider range of 
choices to District residents than are available to residents 
of any of the 50 States. Limiting tuition subsidies to 
residents attending public institutions in Maryland and 
Virginia would be more consistent with the options available to 
residents of any State.
    There are 30 public colleges and universities in Maryland 
and Virginia, five of which have open admission policies. 
Furthermore, the administration of the program will be more 
complex if the administering entity must work with institutions 
of higher education from all 50 States rather than institutions 
in just two States.
    Details regarding the costs of that particular provision 
are provided in my written testimony.
    The administration also feels strongly that limited Federal 
resources must be targeted first to those students with greater 
need for assistance. Under H.R. 974, if funding is insufficient 
to cover the demand for tuition assistance, award amounts would 
be decreased for all eligible students. As drafted, the mayor 
would have no opportunity to utilize any other mechanism for 
targeting funds.
    It is critical to the future of this program that the 
wealthiest D.C. residents do not obtain tuition assistance from 
a limited amount of funds at the expense of lower- and middle-
income District of Columbia residents. Accordingly, we believe 
that some kind of priority funding mechanism, such as the means 
test contained in S. 856, must be included in the legislation 
ultimately enacted by Congress.
    As I mentioned previously, we are very supportive of 
providing grants to students who choose to attend private 
colleges and universities. We believe, however, that H.R. 974 
structures these grants in a way that is more generous than 
similar grants provided to residents of States. In most States, 
the grants are not available to students attending private 
institutions outside the States, the grants are not as large as 
$3,000 per year, and they are typically provided on the basis 
of need or merit. S. 856 provides benefits that are more 
similar to other States.
    We also believe, as do many others, that the residency 
requirements for students receiving benefits under either bill 
should be tightened to ensure that these benefits go to people 
with long-term commitments to the District of Columbia and not 
to students who come to the District of Columbia merely for the 
purpose of attending college.
    Finally, because administering this program will be a 
complicated task, we would like to see H.R. 974 modified to 
provide maximum flexibility for the mayor and the Secretary of 
Education to determine how to best administer this program. 
Furthermore, we believe there must be adequate Federal 
authority added to the final legislation to monitor the program 
to ensure accountability of Federal funds. This is especially 
true because the program is likely to be supported exclusively 
by Federal funds.
    In closing, let me again express how pleased we are about 
the level of support and commitment that has been generated by 
H.R. 974 and S. 856. The bills complement the efforts of the 
private sector, including the D.C. College Access Program. 
Working together, we can strengthen the Nation's Capital by 
realizing the potential of all D.C. high school students.
    I would be pleased to answer any questions that you may 
have.
    Senator Voinovich. Thank you very much.
    Mayor, would you like to comment about some of the things 
that Ms. McLaughlin talked about--differences of opinion with 
the bill and the Department's approach to it?
    Mayor Williams. In regard to this notion that if District 
students are given access in the 50 States at the rates that we 
are talking about to our private institutions, it would situate 
District students better than students in other States, I would 
just argue that while the spirit of this legislation is to 
situate us like any other State, we are not yet a State, and we 
are among the most taxed people on the Planet, and we are the 
Nation's Capital. All of those are special and unique 
circumstances which I think, while they do not require, 
certainly they contemplate a different kind of special, custom 
solution because we are the Nation's Capital.
    Also, Senator Jeffords talked about using this as a 
launching pad and an initial model. I think everything we do in 
the District of Columbia should be about investing in academic 
development, and investing in children is a key part of that. I 
think that we in the District, as we invest in the University 
of the District of Columbia, should think about, by leveraging 
this Federal funding, local funding in the future to expand 
this program. That is certainly something that I would look at.
    If it could be shown, for example, that for $3,000 a year, 
you have a family living in the District, paying over a period 
of time far more in taxes, that is a good return on investment.
    Senator Voinovich. Thank you both very much.
    Our third and final panel includes Lucio Noto, Chairman and 
Chief Executive Officer of Mobil Corporation; Dr. Julius 
Nimmons, President of the University of the District of 
Columbia; and Ms. Patricia McGuire, Chairwoman of the 
Government Relations Committee of the Consortium of 
Universities of the Washington Metropolitan Area.
    I am glad to have all of you here. Mr. Noto, I had an 
opportunity to meet with you prior to the hearing, and again 
thank you and the other private sector folks for stepping 
forward and participating in a very ambitious scholarship 
program to aid District of Columbia students.
    I am not sure about my time. I am supposed to preside at 1 
o'clock, and I will hear back in about 5 minutes. So what I 
would like to do is to move quickly through your testimony, and 
if you could summarize, I would be grateful, and I apologize to 
you for the long wait that you have had in order to present 
your testimony before the Subcommittee.
    I would like to call first on Ms. McGuire.

   TESTIMONY OF PATRICIA MCGUIRE,\1\ CHAIRWOMAN, GOVERNMENT 
    RELATIONS COMMITTEE, CONSORTIUM OF UNIVERSITIES OF THE 
                  WASHINGTON METROPOLITAN AREA

    Ms. McGuire. Thank you, Mr. Chairman. I am pleased to be 
here with President Julius Nimmons from UDC on behalf of the 
Consortium of Universities which includes 12 major colleges and 
universities in the District of Columbia, Maryland, and 
Virginia, including UDC and my own institution, Trinity 
College. I also acknowledge the presence here today of Dr. 
Charlene Drew Jarvis, President of Southeastern University and 
Member of the Council of the District of Columbia, and the many 
students from all of our institutions who are here in the room 
with us.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. McGuire with attachments appears 
in the Appendix on page 50.
---------------------------------------------------------------------------
    I have prepared testimony which I would ask be entered into 
the record, and I will summarize a few key points in 
recognition of your time.
    First, let me point out Chart A in the written testimony 
shows that the Consortium enrolls more than 7,000 D.C. 
residents as full-time undergraduate students, including 4,300 
D.C. students in the three public universities and 2,700 D.C. 
residents in the nine private institutions, which is 39 percent 
of all District of Columbia residents in our institutions, 
which is twice the national average for private college 
attendance.
    The Consortium supports Congressman Davis' bill, but we do 
want to be sure that this initiative also supports students who 
choose to attend college close to home, thus augmenting and not 
eroding the District of Columbia's talent pool and future 
workforce, which is the goal of any State's higher education 
program.
    We have welcomed in particular that part of this 
legislation that strengthens UDC and that supports D.C. 
students who choose private colleges here.
    We support the Davis bill and needs-testing and the 
geographic situation. I would like to offer a particular 
comment about the Tuition Assistance Grant Program for students 
who are D.C. residents attending private colleges. We ask the 
Senate to adopt the $3,000 TAG provision of the Davis 
legislation which, in our testimony, we illustrate mirrors 
existing programs in Maryland and Virginia and elsewhere in the 
Nation. A smaller TAG would unfairly discriminate against D.C. 
students who stay at home to attend private institutions. While 
we do not favor a needs test, the simple fact exists that with 
one of the highest poverty rates in the Nation, the District of 
Columbia already has a surfeit of students with great economic 
need, and many District of Columbia students cannot afford the 
luxury of travel to out-of-State institutions.
    Contrary to popular myths, many if not most of the D.C. 
students who choose private colleges in the District of 
Columbia are not wealthy elites. Private universities in D.C. 
already provide millions of dollars in grants to D.C. 
residents, and even this extensive aid is not enough. The Davis 
TAG grant would supplement, not supplant, the millions we are 
already investing in higher education of D.C. students.
    To illustrate, let me call your attention to our own 
experience at Trinity College, one of the District's historic 
colleges, a 100-year-old Catholic college with a primary 
mission to women, now serving a student body that is more than 
60 percent African American and Latino. Forty percent of our 
1,500 students are D.C. residents; 28 percent of last year's 
freshman class were graduates of D.C. public schools. Full-time 
D.C. students at my institution receive average institutional 
grants of $6,900. Trinity grants to D.C. students exceed $1 
million, which is 6 percent of Trinity's tiny budget of $16.5 
million. Last year, Trinity's institutional grant support for 
D.C. freshmen exceeded the total combined amount of Pell Grants 
and Federal loans taken by those same students.
    Even with this considerable institutional aid, many of our 
D.C. students still face great financial stress. Some of our 
18-year-old freshmen from D.C. work 30 to 40 hours a week--too 
many hours for young students who should be concentrating on 
their studies. Some of them have to drop out for financial 
reasons. The difference of $3,000 through an in-State grant 
program would help to ensure academic persistence and academic 
success for students who are most at risk--low-income African 
American and Hispanic students who are graduates of the 
District of Columbia public schools who are striving to change 
their economic circumstances through earning a degree at the 
local college they choose for educational reasons.
    We disagree with the CBO report that grossly inflated the 
likely cost of the TAG program. Based on our current enrollment 
of D.C. residents, we project an outer maximum of 3,000 
participants in the TAG program. Chart C in my written 
testimony presents the bottom line. Based on regional high 
school graduation projections, we estimate the peak cost of the 
TAG portion of this program would be about $7.3 million in the 
year 2003, for about 2,400 participants.
    Regarding residency, we believe the loophole discovered by 
the CBO could easily be closed, either with a longer residency 
requirement or to require the student to be a D.C. resident at 
the time of enrollment or to require parental residency.
    We urge this Subcommittee to amend H.R. 974 to clarify and 
strengthen the legislation. We urge you to enact the bill with 
the full understanding of the opportunities that exist right 
there in the Nation's Capital, which has been and continues to 
be one of the best college towns anywhere in the world.
    Thank you, Mr. Chairman.
    Senator Voinovich. Thank you very much for your testimony.
    Dr. Nimmons, it is a pleasure to welcome you here today. I 
have been a fan of our Historically Black Colleges, and am not 
sure if you are familiar with my work in Ohio at Central State, 
but it looked like we were going to be losing one of our 
Historically Black Colleges, and we went to work, and it is now 
back on its feet, and I think it has a bright future. We are 
lucky to have--and you may know him--Dr. John Garland, who is 
our president, whom we brought from Washington.
    I commend you for your leadership and the contribution that 
your institution is making to the District, and I would like to 
hear your testimony.

    TESTIMONY OF DR. JULIUS F. NIMMONS, JR.,\1\ PRESIDENT, 
             UNIVERSITY OF THE DISTRICT OF COLUMBIA

    Dr. Nimmons. Thank you, Senator. I am familiar with that 
situation, and Mr. Garland, the new president, did come from 
UDC. At one point, he was with us.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Nimmons appears in the Appendix 
on page 75.
---------------------------------------------------------------------------
    I thank you for this opportunity, Mr. Chairman. Let me say 
first that I sit here at a great disadvantage. Among all the 
stakeholders in this noteworthy initiative, the University of 
the District of Columbia is the most needy and the most 
vulnerable of all, and I am concerned that in speaking out for 
our great institution, I stand the risk of appearing as a 
dissenter, when in fact I am deeply grateful that you are 
willing to put significant resources into supporting higher 
education for the citizens of the District of Columbia and that 
we are able to come together on this issue.
    I am sincerely appreciative of this opportunity to voice 
the University's position on the tuition assistance bill and of 
the efforts of the 106th Congress to elevate higher education 
to the highest of priorities for the citizens of the District 
of Columbia.
    Both the House and the Senate would like to put forth 
strong legislation that equalizes for District residents higher 
educational opportunities enjoyed by all other U.S. citizens. 
By design, the legislation would provide significant benefits 
for middle class, above-average students, and this is good for 
the city because it is one step in maintaining a solid middle 
class presence. Yet for the thousands of low-income students 
who continue to suffer poor educational attaintment, whose 
parents can barely pay for daily living essentials such as 
housing and food, and who must rely on UDC to assist them in 
their quest for social participation and self-sufficiency, a 
major investment in the University is warranted. I am certain 
that we do not want to end up with what amounts to separate but 
unequal educational opportunity for the majority of the 
citizens of the Nation's Capital.
    Congresswoman Norton has worked very diligently on our 
behalf to secure current year enhancement funding for the 
University in the amount of $1.5 million, and she has advocated 
aggressively for our inclusion in the Department of Education's 
Title III program. We are truly grateful for this support.
    I want to emphasize that the University is the State's 
system of higher education for the city. Upon first hearing of 
the proposed legislation, I have to tell you that the 
University community was terribly upset, for it appeared that 
another blow had been dealt to the institution. You see, we 
take great pride in what we have been able to accomplish. We 
have been hit hard at every turn in our plans to reconfigure 
the University into a modern, cutting-edge institution having 
to go so far as to shut down, albeit briefly, in order to 
regroup and move forward.
    Under the proposed legislation, the Congressional Budget 
Office has estimated that the University will require at least 
$40 million to raise UDC's quality to the level of the premier 
public universities across the country. And they are right--we 
need more than $40 million to elevate the University to 21st 
Century standards. For the past 30 years, Title III Higher 
Education Act provisions allowed Historically Black Colleges 
and Universities over $1 billion in enhancement funding. The 
University has never received any of this funding--$60 million 
that we should have had, but which was denied us because of 
concerns that our HBCU sister institutions would individually 
suffer some reduction in their annual payments if UDC were 
added to the eligible pool.
    As we became an HBCU, Title III was rewritten to include a 
restriction prohibiting the University from participating based 
on the erroneous notion that the University received an annual 
direct appropriation from Congress as does Howard University at 
$200 million per year. Nowhere in the language of the Federal 
payment authorization or subsequent appropriations bills 
accompanying this authorization does UDC appear. A very serious 
injustice was done to us.
    Although surrounded by more than 11 higher education 
institutions, residents of the District of Columbia are not 
enrolled in these institutions in significant numbers. Roughly 
100 District of Columbia residents are enrolled at the 
undergraduate level in each of these nationally-focused 
institutions with the exception of Howard University, Trinity 
College, and Southeastern University, with roughly 1,400 
undergraduate District residents, respectively. Strayer College 
also enrolls a significant number of D.C.'s adult population.
    Thus, UDC enrolls from 4 to 57 times the number of District 
residents present in the other institutions; 81 percent of our 
undergraduate students are District residents.
    UDC currently offers a program in three of the five 
fastest-growing jobs requiring an associate's degree, five of 
the seven fastest in the bachelor's level; 12 of the fastest in 
the baccalaureate level; and four of the five fastest-growing 
jobs requiring a master's degree. The institution is responding 
to regional demand for trained talent in high-demand areas 
while placing otherwise neglected minorities on the path to 
full participation. And our students remain in the area, 
sustaining the middle class base we all covet.
    In summary, it is time for the University of the District 
of Columbia to receive the kind of financial investment that 
allows it to prosper and thrive. Your commitment in funding to 
the University is a proactive step in the right direction. Give 
us a chance to grow and develop without interruptions, without 
seriously damaging budget reductions. Give us all the modern 
technologies, equipment and infrastructure we need to get the 
job done.
    Thank you, sir.
    Senator Voinovich. Thank you.
    Our next panelist is Lucio Noto, who is Chairman of the 
Board and Chief Executive Officer of Mobil.
    Mr. Noto, again, thank you for being here today and thank 
you for your leadership.

TESTIMONY OF LUCIO A. NOTO,\1\ CHAIRMAN OF THE BOARD AND CHIEF 
              EXECUTIVE OFFICER, MOBIL CORPORATION

    Mr. Noto. Mr. Chairman, thank you very much for this 
opportunity.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Noto appears in the Appendix on 
page 87.
---------------------------------------------------------------------------
    I am here representing 16 Washington, D.C. area private 
companies and foundations who have created an organization 
known as DC-CAP, the College Access Program, to help some of 
the District of Columbia's public high school students achieve 
the kind of future that we are confident they can.
    The reason I am here talking in favor of a tuition 
assistance program is because those of us who created this 
program see tuition assistance and CAP as forming three legs of 
a stool: Counseling, choice, and financial assistance. Choice 
is an essential element of that stool, and that is why we are 
active in trying to support the bill that you are currently 
considering.
    There are many people we want to thank for putting us 
together and getting us to do what we did. I especially want to 
mention Donald Graham of The Washington Post, who could not be 
here this morning--he is at a board meeting--but without his 
push and his leadership, the private sector could not have done 
its piece.
    What has the private sector done? We have raised about $16 
million on our way to an initial goal of $20 million. What are 
we going to do with that money? We are going to try to fund 
three things.
    First, we are going to pay for a counselor at every D.C. 
public high school. Why do we want to do that? Kids need to 
understand that college is a realistic objective for them, both 
in terms of financial calculations and also in terms of 
personal aspirations. And second, kids and parents need a lot 
of help navigating through a very complex system of aid, 
admission, and what-have-you. We are going to do that.
    Third, we are going to give last-dollar financial help to 
kids who do get into college, up to $2,000 a year for 5 years 
to a student who qualifies--again, out of the D.C. public 
school system.
    You might ask why are we doing this. We are not doing this 
for altruistic reasons. We are doing this because we think it 
makes good business sense. We need qualified kids to come out 
of the D.C. public school system, period. We need employment. 
One hundred fifty thousand jobs go begging each week in The 
Washington Post technical job want ad section.
    No. 1, corporations, believe it or not, feel that they do 
have an obligation to give back to the communities where we 
operate and where we make a living.
    And No. 3, for a company like Mobil, at least, if we do not 
have a vibrant and successful metropolitan area close to our 
headquarters location, I could not attract and retain and keep 
the kind of talent that I want.
    So we are here because we think it makes good sense.
    I cannot make any comment on all the discussion that I have 
heard this morning about means testing, 50 States versus 2, do 
not hurt this school, do this, do that. I have to tell you, if 
my company ran that way, we would be bankrupt.
    This is a good idea. It needs to be pushed, and it needs to 
be brought to fruition soon, before the July recess. We want to 
get these counselors whom we are paying for into the schools 
for next year. We want to get financial assistance that will 
come out of the CAP program into the kids' hands when they 
graduate at the end of the semester that ends in June 2000. We 
need the tuition assistance program to give these kids the 
choice that they should legitimately have. Put them on par with 
most of the other communities in this country.
    Now, I am preaching to the converted when I talk to you, 
Mr. Chairman, because I know that you were involved with two 
model programs in Cleveland and Columbus that, frankly, we in 
the private sector have looked at as examples of what we could 
do here, and I congratulate you for that, and I know that I do 
not have to sell you on that.
    At the end of the day, we need your help to get this thing 
moving. I cannot believe that we cannot put four bright people 
in a room representing both sides of the argument on means 
testing, on 50 States versus 2 States, and on some of the other 
complexities which I am afraid we are manufacturing, and get 
the thing settled and get it settled quickly. I will tell you 
frankly, in my company, if they could not do that, I would fire 
them.
    So please, I urge you, let us not get mixed up in what 
school is going to get what, and how we have to help UDC's 
budget. Those may be very legitimate issues, but that is not 
the purpose here. We are here to help the kids, and we need 
your assistance.
    I thank you.
    Senator Voinovich. If I were still Governor, we would get 
it done that quickly. [Laughter.]
    But I am not, and I do believe that we have some good 
people who really care about this program, and I can assure you 
and everyone else here that I am going to do everything in my 
power to get everyone into a room and see if we cannot get this 
worked out ASAP and get it done, certainly, for sure, before we 
get out of here in August, so that it is done, because it is 
going to take time to put things in place and make sure all of 
the t's are crossed and i's dotted so that when we launch the 
program, we do not end up with problems. That is really 
important, that when we do launch it, we have anticipated as 
many of the problems as we can, so it does not hit some land 
mines somewhere along the way and become discredited, and we go 
back to accusations and so forth.
    Mr. Noto. Mr. Chairman, the reason I think it is very 
important--as I told you, we have raised about $16 million, and 
we are on our way to $20 million. We have 16 groups already 
involved in that effort, and you will see their names listed in 
my written testimony. I am very grateful to them. You will see 
the usual suspects. You will see those people who have done a 
lot for the District of Columbia over time. And we have so much 
new business flourishing in this area that if we can keep the 
momentum going on this, I think we can get a lot more money 
from a lot of companies who have not joined that list yet who 
make a very good living in this area.
    So I would urge you to remember that we are bringing 
private money, and we can bring some incremental private money 
if the momentum goes right.
    Senator Voinovich. I will help you go after them.
    Mr. Noto. Thank you.
    Senator Voinovich. Let me say one other thing to you. I 
think it is important that the business community contact 
Senator Durbin, because he has some real questions about the 
budgetary viability of this proposal.
    One thing that I have come to recognize in my political 
career is a thing called leveraging. One reason why I am 
interested in this program, Mr. Noto, is because of the fact 
that you and other people in the private sector are stepping 
forward. And quite frankly, I look at the Federal Government's 
involvement in this program as doing our part to continue to 
encourage you to do your part. I think that if we were not to 
go forward with this legislation, and we flubbed this 
opportunity to move forward, it would be very discouraging to 
you and other members of the private sector.
    So I think it is very important that you get that across to 
Senator Durbin and others who may be having a problem with 
this, because where can you spend $17 million of Federal 
money--and we know that as the years go on, it may be more--and 
at the same time generate over $20 million in the private 
sector? I think that is a terrific deal; I would love to see 
the Federal Government involved in more programs like that.
    Mr. Noto. Hear, hear.
    Senator Voinovich. So we are going to move on it as quickly 
as we can.
    I want to thank all of you for being here today. We are 
going to launch something here that is very important not only 
to the District of Columbia but to this country.
    Thank you.
    The meeting is adjourned.
    [Whereupon, at 1:03 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


PREPARED STATEMENT OF PAUL STRAUSS, U.S. SENATOR, DISTRICT OF COLUMBIA 
                                (SHADOW)
    Chairman Voinovich, Senator Durbin, and Members of the Senate 
Subcommittee on Oversight of Government Management, Restructuring and 
the District of Columbia, I am Paul Strauss, the Shadow U.S. Senator 
elected by the voters of the District of Columbia.
    For years, District residents have been denied basic rights that 
citizens in the rest of the Nation have enjoyed. In every State in the 
Nation, there is a university system supported by that State's 
Government. In the District of Columbia, there is not a comparable 
system in place. We have a State University--but no State University 
system. ``House Resolution 974--The District of Columbia College Access 
Act'' is a crucial step towards establishing equality for District 
residents by affording them a myriad of educational opportunities. A 
Senate bill, ``Senate 856--Expanded Options in Higher Education for 
District of Columbia Students Act of 1999,'' takes steps in the same 
direction but with some differences. I urge the Senate to adopt the 
version submitted by the House.
    The House and Senate versions (H.R. 974 and S. 856 respectively), 
focus on the same basic objectives. However, several components warrant 
special attention. First, the program should focus on national access, 
and not regional access. S. 856 limits access to public institutions in 
Maryland and Virginia. H.R. 974 allows access to public institutions in 
each of 50 States. In order to best serve the college-bound residents 
of the District, we must provide options beyond Maryland and Virginia. 
Additionally, the Senate bill limitation will likely create a strain on 
the Maryland and Virginia public university systems that will 
disadvantage residents of those States.
    Second, the program should promote participation by all colleges 
and universities in the District. A critical factor in creating equal 
educational opportunities for District residents is to advocate for 
full participation of those institutions of higher learning within the 
District borders. We are fortunate to have some of the finest 
universities in the Nation right here in our own backyard. The 
residents of the District are entitled to the education available from 
these institutions while not being excluded solely because of financial 
situations.
    Third, the program should be administered by the local government, 
and not by the Federal Government. The mayor's office should have 
discretion to determine the procedure and criteria used in 
administering all funds within this bill. The Department of Education, 
while perhaps capable of providing guidelines, does not have the 
resources necessary to distribute the funds to District residents in 
the most effective manner. Any formal involvement by an entity of the 
Federal Government would only serve to hinder the efficiency of the 
administration of the program. Our local government currently in place 
is fully equipped to administer the program to its own citizens.
    Finally, the program should not require initial means testing or 
income caps. There is no data to predict what the response level from 
District residents will be to this program. It would be a grave mistake 
to establish an income cap as a marker of eligibility for the program. 
This cap could create a situation where funds are available for 
distribution, but where the only otherwise eligible candidates are 
refused funding from the program simply because of the income bracket 
of their family. This means testing policy will likely prove to be 
highly inefficient.
    The Nation's Capital should be a place where all residents of the 
United States would be proud to call home. We should encourage 
residents to remain in the District, and encourage any American living 
outside the District to select their Capital as their home. Congress 
denies us Statehood, but D.C. residents need not be denied the benefits 
of a State educational system. Congress denies us equal representation, 
they should not deny us a quality education.

[GRAPHIC] [TIFF OMITTED] T9579.001

[GRAPHIC] [TIFF OMITTED] T9579.002

[GRAPHIC] [TIFF OMITTED] T9579.003

[GRAPHIC] [TIFF OMITTED] T9579.004

[GRAPHIC] [TIFF OMITTED] T9579.005

[GRAPHIC] [TIFF OMITTED] T9579.006

[GRAPHIC] [TIFF OMITTED] T9579.007

[GRAPHIC] [TIFF OMITTED] T9579.008

[GRAPHIC] [TIFF OMITTED] T9579.009

[GRAPHIC] [TIFF OMITTED] T9579.010

[GRAPHIC] [TIFF OMITTED] T9579.011

[GRAPHIC] [TIFF OMITTED] T9579.012

[GRAPHIC] [TIFF OMITTED] T9579.013

[GRAPHIC] [TIFF OMITTED] T9579.014

[GRAPHIC] [TIFF OMITTED] T9579.015

[GRAPHIC] [TIFF OMITTED] T9579.016

[GRAPHIC] [TIFF OMITTED] T9579.017

[GRAPHIC] [TIFF OMITTED] T9579.018

[GRAPHIC] [TIFF OMITTED] T9579.019

[GRAPHIC] [TIFF OMITTED] T9579.020

[GRAPHIC] [TIFF OMITTED] T9579.021

[GRAPHIC] [TIFF OMITTED] T9579.022

[GRAPHIC] [TIFF OMITTED] T9579.023

[GRAPHIC] [TIFF OMITTED] T9579.024

[GRAPHIC] [TIFF OMITTED] T9579.025

[GRAPHIC] [TIFF OMITTED] T9579.026

[GRAPHIC] [TIFF OMITTED] T9579.027

[GRAPHIC] [TIFF OMITTED] T9579.028

[GRAPHIC] [TIFF OMITTED] T9579.029

[GRAPHIC] [TIFF OMITTED] T9579.030

[GRAPHIC] [TIFF OMITTED] T9579.031

[GRAPHIC] [TIFF OMITTED] T9579.032

[GRAPHIC] [TIFF OMITTED] T9579.033

[GRAPHIC] [TIFF OMITTED] T9579.034

[GRAPHIC] [TIFF OMITTED] T9579.035

[GRAPHIC] [TIFF OMITTED] T9579.036

[GRAPHIC] [TIFF OMITTED] T9579.037

[GRAPHIC] [TIFF OMITTED] T9579.038

[GRAPHIC] [TIFF OMITTED] T9579.039

[GRAPHIC] [TIFF OMITTED] T9579.040

[GRAPHIC] [TIFF OMITTED] T9579.041

[GRAPHIC] [TIFF OMITTED] T9579.042

[GRAPHIC] [TIFF OMITTED] T9579.043

[GRAPHIC] [TIFF OMITTED] T9579.044

[GRAPHIC] [TIFF OMITTED] T9579.045

[GRAPHIC] [TIFF OMITTED] T9579.046

[GRAPHIC] [TIFF OMITTED] T9579.047

[GRAPHIC] [TIFF OMITTED] T9579.048

[GRAPHIC] [TIFF OMITTED] T9579.049

[GRAPHIC] [TIFF OMITTED] T9579.050

[GRAPHIC] [TIFF OMITTED] T9579.051

[GRAPHIC] [TIFF OMITTED] T9579.052

[GRAPHIC] [TIFF OMITTED] T9579.053

[GRAPHIC] [TIFF OMITTED] T9579.054

[GRAPHIC] [TIFF OMITTED] T9579.055

[GRAPHIC] [TIFF OMITTED] T9579.056

[GRAPHIC] [TIFF OMITTED] T9579.057

[GRAPHIC] [TIFF OMITTED] T9579.058

[GRAPHIC] [TIFF OMITTED] T9579.059

[GRAPHIC] [TIFF OMITTED] T9579.060

                                  <all>

</pre></body></html>
